BECKER GALLAGHE R
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Motion for Leave to File and Brief Amici
Curiae of the National Jewish Commission on Law and
Public Affairs ("COLPA") and other Jewish
Organizations in Support of Petitioners in 20-14,
Congregation Rabbinical College of Tartikov, Inc., et
al. v. Village of Pomona, New York, et al., was sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day Service and e-mail to
the following parties listed below, this 7th day of
August, 2020:
John George Stepanovich
Stepanovich Law, PLC
618 Village Drive, Suite K
1000 Centerville Turnpike
Virginia Beach, VA 23454
(757) 410-9696
john@stepanovi chlaw .com
Counsel for Petitioners
Thomas J. Donlon
Robinson & Cole, LLP
1055 Washington Boulevard
Stamford, CT 06901
(203) 462-7549
tdonlon@rc.com
Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Nathan Lewin
Counsel of Record
Alyza D. Lewin
Lewin & Lewin, LLP
888 17th Street NW
4th Floor
Washington, DC 20036
(202) 828-1000
nat@lewinlewin.com

Of Counsel
Dennis Rapps
450 Seventh Avenue
44th Floor
New York, NY 10123
(646) 598-7316
drapps@dennisrappslaw.com
Counsel for Amici Curiae

All parti es requ ired to be serv ed have been serve d.
I furth er decla re unde 1· pena lty of perju ry that the
foreg oing i true and corre ct. This Cert ifica te is
exec uted on Aug ust 7, 2020.

Don na J. Wolf (
Beck er Gall aghe r Lega l Pub shing , Inc.
8790 Gove rnor' s Hill Drive, Suite 102
Cinc inna ti, OH 4524 9
(800) 890- 5001
Subs cribe d and swor n to before me by the said
Affia nt on the date below desig nate d.
Date :

du

Nota ry Publ ic
[seal]

